OIG Investigative Reports Elkins , WV June 24, 2011 - Former Lewis County Resident Sentenced on Mail Fraud and Identity Theft Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Report
OFFICE OF THE UNITED STATES ATTORNEY
NORTHERN DISTRICT OF WEST VIRGINIA
WILLIAM J. IHLENFELD, II
UNITED STATES ATTORNEY
1125 Chapline Street, Federal Building, Suite 3000
Wheeling, WV 26003    (304) 234-0100 
Contact: Fawn E. Thomas, Public Affairs Specialist
June 24, 2011
FOR IMMEDIATE RELEASE
Former Lewis County Resident Sentenced on Mail Fraud and Identity Theft Charges
ELKINS, WEST VIRGINIA — A 25 year old former Lewis County, West Virginia,
resident was sentenced on June 22, 2011, in United States District Court in Elkins by Chief
Judge John Preston Bailey.
United States Attorney William J. Ihlenfeld, II, announced that JONATHAN
EDWARD ACKERMAN was sentenced to 57 months imprisonment to be followed by three
years supervised release. ACKERMAN entered guilty pleas on March 8, 2011, to two counts
of an Indictment charging him with mail fraud and aggravated identity theft. Specifically, for
the purpose of executing a scheme to obtain money, ACKERMAN caused a Barclays Visa
Black card to be mailed to him by Federal Express on July 27, 2009, and used the name, birth
date, and social security number of another person to obtain the card. As part of the plea,
ACKERMAN stipulated to causing a loss of more than $120,000, which included six
educational loans obtained fraudulently in Pennsylvania between August 2006 ad July 2007.
ACKERMAN was ordered to pay restitution as follows:
$9,003.75 to Barclay’s Bank;
$25,757.54 to HSBC Bank;
$104,487.85 to the Pennsylvania Higher Education Assistance Agency; and
$56,696.42 to Sallie Mae.
ACKERMAN is in federal custody.
The case was prosecuted by Assistant United States Attorney Stephen D. Warner. The
case was investigated by the United States Postal Inspection Service, the West Virginia State
Police, the United States Department of Education, and the Pennsylvania Higher Education
Assistance Agency.
Top
Printable view
Last Modified: 06/27/2011
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov